OIG Audit Report GR-90-09-001

Office of Justice Programs Convicted Offender DNA Backlog Reduction Program Grants Awarded to the California Department of Justice, Sacramento, California
Audit Report GR-90-09-001
January 2009
Office of the Inspector General


Executive Summary


The Office of the Inspector General,  Audit Division, has completed an audit of two Convicted Offender DNA Backlog  Reduction Program grants awarded by the United States Department of Justice,  Office of Justice Programs (OJP), to the California Department of Justice (CA DOJ),  located in Sacramento, California.  The  purpose of the Convicted Offender DNA Backlog Reduction Program grants was to significantly  reduce the backlog of convicted offender DNA samples awaiting DNA profiling.1 At  the start of the first grant, Laboratory officials estimated that there was a  backlog of DNA samples in progress, or not yet started of about 221,000.  As of September 1, 2006, OJP had awarded  the CA DOJ a total of $1,513,224 for the two grants. 
The objective of this audit was to  determine whether reimbursements claimed for costs under the grants were  allowable, supported, and in accordance with applicable laws, regulations,  guidelines, and terms and conditions of the grants.
We found that  the CA DOJ generally complied with the terms and conditions of the grants,  with one exception.  The CA DOJ did not timely  submit to OJP its semiannual Progress Reports for either of the grants that we  audited. As a  result, we recommended that CA DOJ improve its grant reporting practices.
We discuss these matters in the  Findings and Recommendations Section of this report.  We discussed the results of our audit with CA  DOJ officials and have included their comments in the report, as  applicable.  In addition, we requested  written responses to our draft report from CA DOJ and OJP, which are included  in this report as Appendices II and III, respectively.  Our audit objective, scope, and methodology  appear in Appendix I of this report.


 

Footnotes

DNA, or deoxyribonucleic acid, is genetic material  found in almost all living cells that contains encoded information necessary  for building and maintaining life.   Approximately 99.9 percent of human DNA is the same for all  people.  The differences found in the  remaining 0.1 percent allow scientists to develop a unique set of DNA identification  characteristics (a DNA profile) for an individual by analyzing a specimen  containing DNA.





 




Return to OIG Home Page